Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

February 12, 2020
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

McGregor v. Texas, No. 19-685
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent respectfully moves for an extension of the time for filing a response to the petition for writ of certiorari in McGregor
v. Texas, No. 19-685.
The response is currently due on February 20, 2020. A 60-day extension, until April
2, 2020, is needed because undersigned counsel was not notified until yesterday,
February 11, 2020, of the Fort Bend County District Attorney’s request that the Office of the Attorney General assume representation of the State of Texas and respond
to the petition for a writ of certiorari in this case. Because my office is new to the
case, and because we have not yet received the state-court records, additional time
is needed to review the record and prepare a response that will assist the Court.
No prejudice would arise from the requested extension. Petitioner does not oppose
this request.

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Scott S. Harris
February 12, 2020
Page 2
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of April 20, 2020.
Sincerely,
/s/ Kyle D. Hawkins
KYLE D. HAWKINS
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
kyle.hawkins@oag.texas.gov
Counsel for Respondent State of Texas
cc:

Randolph L. Schaffer, Jr. (Counsel for Petitioner)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

